Nos. 19-840, 19-1019

 

IN THE

Supreme Court of the United States

THE STATE OF CALIFORNIA, ET AL., PETITIONERS,
v.

THE STATE OF TEXAS, ET AL.

THE STATE OF TEXAS, ET AL., PETITIONERS,
v.

THE STATE OF CALIFORNIA, ET AL.

ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF OF AMICI CURIAE FAMILIES USA ET AL.
SUPPORTING PETITIONER THE STATE OF
CALIFORNIA ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,710 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020.

 

Wilson-Epes Printing Co., Inc.
